Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




VIRGINIA IMPROPERLY CLAIMED
  FEDERAL REIMBURSEMENT
     FOR MOST REVIEWED
   MEDICAID PAYMENTS TO
     CATAWBA HOSPITAL


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                        May 2014
                                                      A-05-12-00055
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Virginia Medicaid Program

The Department of Medical Assistance Services (State Medicaid agency) administers the
Virginia Medicaid program according to the CMS-approved State plan. The State Medicaid
agency makes Medicaid payments to eligible hospitals and claims Federal reimbursement for a
portion of the payments. The Virginia Department of Behavioral Health and Developmental
Services operates two State-owned hospitals that focus on inpatient treatment for geriatric mental
illnesses. Catawba Hospital (Catawba) is one of those hospitals. The Virginia Department of
Health is the State survey agency responsible for determining whether the hospitals meet the
standards for Medicaid participation. During the audit period, January 1, 2006, through
December 31, 2010, Catawba was enrolled in Medicaid as a hospital and was an institution for
mental diseases (IMD).

Federal Requirements

For States to claim Federal reimbursement for their Medicaid payments for inpatient hospital
services provided to patients aged 65 or older in IMDs, those services must meet the Federal
definition of such services. This definition requires the provider to demonstrate compliance with
the basic Medicare Conditions of Participation (CoP) generally applicable to all hospitals and
two special Medicare CoP applicable to IMDs providing such services. The basic Medicare CoP
address issues such as licensing, quality of care, safety, patient rights, self-assessment and
performance improvement, and service availability. The special Medicare CoP specify staffing
and medical record requirements.

To demonstrate compliance with the basic and special Medicare CoP, facilities must undergo
review by qualified health care professionals. That review provides CMS with reasonable
assurance that participating facilities are improving the health and protecting the safety of
Medicaid beneficiaries. For periods in which an IMD does not demonstrate compliance with the
basic and special Medicare CoP, all payments it receives from the State Medicaid agency for
inpatient hospital services to patients aged 65 or older are ineligible for Federal reimbursement.




                                                 i
CMS made a technical error when it issued regulations for Medicare transplant center CoP in
2007. Effective June 28, 2007, it inadvertently omitted certain regulations for Medicare CoP
relevant to this audit. CMS formally reinstated the omitted regulations effective October 26, 2007.
Despite the omission, CMS’s implementing guidance remained in effect from June 28 through
October 25, 2007 (the regulatory gap period).

OBJECTIVE

Our objective was to determine whether the State Medicaid agency claimed Federal
reimbursement for payments to Catawba for inpatient hospital services it provided to patients
aged 65 or older in accordance with certain Federal requirements for those services.

SUMMARY OF FINDING

Most of the State Medicaid agency’s claims for Federal reimbursement for payments to Catawba
for inpatient hospital services it provided to patients aged 65 or older were not in accordance
with Federal requirements because Catawba did not demonstrate compliance with the special
Medicare CoP during the audit period. Of the $18,607,649 in Federal reimbursement claimed
for that period, $17,395,647 for claims with dates of service outside the regulatory gap period
was not allowable. We have not provided an opinion on the allowability of the remaining
$1,212,002, which was for claims with dates of service during the regulatory gap period. The
State Medicaid agency claimed the $18,607,649 in Federal reimbursement because it believed
that Catawba had met all requirements to be eligible for Medicaid payments for the inpatient
hospital services it provided to patients aged 65 or older.

RECOMMENDATIONS

We recommend that the State Medicaid agency:

   •   refund $17,395,647 to the Federal Government for its share of payments to Catawba for
       inpatient hospital services it provided to patients aged 65 or older on dates outside the
       regulatory gap period,

   •   work with CMS to determine whether the State Medicaid agency should refund an
       additional $1,212,002 to the Federal Government for its share of payments to Catawba
       for inpatient hospital services it provided to patients aged 65 or older on dates during the
       regulatory gap period,

   •   identify and refund the Federal share of any additional Medicaid payments to Catawba
       for inpatient hospital services it provided to patients aged 65 or older on dates after the
       audit period if neither the State Medicaid agency nor Catawba can demonstrate
       Catawba’s compliance with Federal requirements for those services, and

   •   ensure that it claims Federal reimbursement for Medicaid payments for inpatient hospital
       services provided to patients aged 65 or older in IMDs only if those IMDs can
       demonstrate compliance with the special Medicare CoP.


                                                 ii
STATE MEDICAID AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State Medicaid agency did not concur with our first
and second recommendations and did not comment on our third and fourth recommendations.
The State Medicaid agency did not concur with our first and second recommendations because it
believes that Catawba demonstrated compliance with the special Medicare CoP throughout the
audit period. The State Medicaid agency also did not concur with our second recommendation
because it believes that Catawba did not need to comply with regulations omitted during the
regulatory gap period.

After reviewing the State Medicaid agency’s comments, we maintain that our finding and
recommendations are valid. Federal Medicaid requirements mandate that inpatient hospital
services provided to patients aged 65 or older in IMDs are eligible for Federal reimbursement
only if those IMDs demonstrate compliance with the special Medicare CoP. We maintain that
Catawba did not demonstrate such compliance during the audit period. Furthermore, CMS’s
inadvertent omission of regulations for Medicare CoP was a technical error, and its
implementing guidance remained in effect during the regulatory gap period.




                                               iii
                                                    TABLE OF CONTENTS

                                                                                                                                            Page

INTRODUCTION......................................................................................................................... 1

     BACKGROUND ...................................................................................................................... 1
       Medicaid Program ............................................................................................................... 1
       Virginia Medicaid Program ................................................................................................ 1
       Federal Requirements ......................................................................................................... 1

     OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................... 2
       Objective ............................................................................................................................. 2
       Scope ................................................................................................................................... 2
       Methodology ....................................................................................................................... 2

FINDING AND RECOMMENDATIONS .................................................................................. 2

     FEDERAL REQUIREMENTS ................................................................................................. 3
       Medicaid Payments ............................................................................................................. 3
       Medicaid Service Definition ............................................................................................... 3
       Demonstrating Compliance With Medicare Conditions of Participation ........................... 4

     CATAWBA DID NOT DEMONSTRATE COMPLIANCE WITH SPECIAL
     MEDICARE CONDITIONS OF PARTICIPATION DURING THE AUDIT PERIOD ......... 4

     RECOMMENDATIONS .......................................................................................................... 5

     STATE MEDICAID AGENCY COMMENTS ........................................................................ 5

     OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................... 6

APPENDIX

     STATE MEDICAID AGENCY COMMENTS




                                                                       iv
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Virginia Medicaid Program

The Department of Medical Assistance Services (State Medicaid agency) administers the
Virginia Medicaid program according to the CMS-approved State plan. The State Medicaid
agency makes Medicaid payments to eligible hospitals and claims Federal reimbursement for a
portion of the payments. The Virginia Department of Behavioral Health and Developmental
Services operates two State-owned hospitals that focus on inpatient treatment for geriatric mental
illnesses. Catawba Hospital (Catawba) is one of those hospitals. The Virginia Department of
Health is the State survey agency responsible for determining whether the hospitals meet the
standards for Medicaid participation. During the audit period, January 1, 2006, through
December 31, 2010, Catawba was enrolled in Medicaid as a hospital and was an institution for
mental diseases (IMD).

Federal Requirements

For States to claim Federal reimbursement for their Medicaid payments for inpatient hospital
services provided to patients aged 65 or older in IMDs, those services must meet the Federal
definition of such services. This definition requires the provider to demonstrate compliance with
the basic Medicare Conditions of Participation (CoP) generally applicable to all hospitals and
two special Medicare CoP applicable to IMDs providing such services. The basic Medicare CoP
address issues such as licensing, quality of care, safety, patient rights, self-assessment and
performance improvement, and service availability. The special Medicare CoP specify staffing
and medical record requirements. For periods in which an IMD does not demonstrate
compliance with the basic and special Medicare CoP, all payments it receives from the State
Medicaid agency for inpatient hospital services to patients aged 65 or older are ineligible for
Federal reimbursement.

In 72 Fed. Reg. 60787 (Oct. 26, 2007), CMS corrected a technical error that it had made when it
issued regulations for Medicare transplant center CoP that became effective June 28, 2007.
When it amended 42 CFR part 482, subpart E, in 72 Fed. Reg. 15198 (Mar. 30, 2007), CMS
inadvertently omitted 42 CFR §§ 482.60–482.62, which are regulations for Medicare CoP
relevant to this audit. The correction reinstated the omitted regulations effective



                                                1
October 26, 2007. Despite the omission, CMS’s implementing guidance (e.g., manuals)
remained in effect from June 28 through October 25, 2007 (the regulatory gap period).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State Medicaid agency claimed Federal
reimbursement for payments to Catawba for inpatient hospital services it provided to patients
aged 65 or older in accordance with certain Federal requirements for those services.

Scope

We reviewed Catawba’s compliance for the period January 1, 2006, through December 31, 2010,
with certain Federal requirements for inpatient hospital services provided to patients aged 65 or
older in IMDs. We identified $18,607,649 in Federal reimbursement for Medicaid payments to
Catawba for such services provided during the audit period. We limited our review of the State
Medicaid agency’s internal controls to those significant to the objective of our audit.

Methodology

To accomplish our objective, we:

   •    examined Federal and State Medicaid requirements for inpatient hospital services
        provided to patients aged 65 or older in IMDs,

   •    identified periods for which neither the State Medicaid agency nor Catawba could
        demonstrate Catawba’s compliance with certain Federal requirements for such services,

   •    held discussions with officials of the State Medicaid agency and reviewed its Medicaid
        payment records for such services, and

   •    determined the amount of Federal reimbursement for payments to Catawba for claims
        with dates of service during periods when it did not demonstrate compliance.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDING AND RECOMMENDATIONS

Most of the State Medicaid agency’s claims for Federal reimbursement for payments to Catawba
for inpatient hospital services it provided to patients aged 65 or older were not in accordance
with Federal requirements because Catawba did not demonstrate compliance with the special


                                                2
Medicare CoP during the audit period. Of the $18,607,649 in Federal reimbursement claimed
for that period, $17,395,647 for claims with dates of service outside the regulatory gap period
was not allowable. We have not provided an opinion on the allowability of the remaining
$1,212,002, which was for claims with dates of service during the regulatory gap period. The
State Medicaid agency claimed the $18,607,649 in Federal reimbursement because it believed
that Catawba had met all requirements to be eligible for Medicaid payments for the inpatient
hospital services it provided to patients aged 65 or older.

FEDERAL REQUIREMENTS

For States to claim Federal reimbursement for their Medicaid payments for inpatient hospital
services provided to patients aged 65 or older in IMDs, those services must meet the Federal
definition of such services. This definition requires the provider to demonstrate compliance with
the basic Medicare CoP generally applicable to all hospitals and two special Medicare CoP
applicable to IMDs providing such services.

Medicaid Payments

States may claim Federal reimbursement for a portion of their Medicaid medical assistance
payments (section 1903(a)(1) of the Act). Medical assistance includes inpatient hospital services
provided to patients aged 65 or older in IMDs (section 1905(a)(14) of the Act).

Medicaid Service Definition

Regulations in 42 CFR § 440.140(a) implement section 1905(a)(14) of the Act and require IMDs
that provide inpatient hospital services to patients aged 65 or older to meet Medicare psychiatric
hospital requirements stated in 42 CFR § 482.60. Regulations in 42 CFR § 482.60(b) require
such IMDs to meet the basic Medicare CoP generally applicable to all hospitals
(42 CFR §§ 482.1–482.23 and 42 CFR §§ 482.25–482.57), and regulations in
42 CFR § 482.60(c) and (d) require the same IMDs to meet two special Medicare CoP applicable
to psychiatric hospitals (42 CFR §§ 482.61 and 482.62). 1

The Medicare CoP included in the Medicaid definition of inpatient hospital services provided to
patients aged 65 or older in IMDs are minimum standards that provide a basis for improving
quality of care and protecting the health and safety of Medicaid beneficiaries. The basic
Medicare CoP address issues such as licensing, quality of care, safety, patient rights, self-
assessment and performance improvement, and service availability (42 CFR §§ 482.1–482.23
and 42 CFR §§ 482.25–482.57). The special staffing Medicare CoP requires that IMDs that
provide inpatient hospital services to patients aged 65 or older “have adequate numbers of
qualified professional and supportive staff to evaluate patients, formulate written, individualized
comprehensive treatment plans, provide active treatment measures, and engage in discharge
planning” (42 CFR § 482.62). The special medical record Medicare CoP requires that “medical

1
  Psychiatric hospitals with more than 16 beds are both hospitals and IMDs (section 1905(i) of the Act), but not all
facilities that are both hospitals and IMDs are classified as psychiatric hospitals, e.g., Catawba. However, the cited
statutes and regulations require all IMDs that provide inpatient hospital services to patients aged 65 or older to meet
the Medicare CoP applicable to Medicare-participating psychiatric hospitals.


                                                           3
records … permit determination of the degree and intensity of the treatment provided to
individuals who are furnished services in the institution” (42 CFR § 482.61).

Demonstrating Compliance With Medicare Conditions of Participation

To demonstrate compliance with the basic and special Medicare CoP, facilities must undergo
review by qualified health care professionals. Facilities can demonstrate compliance with the
basic and special Medicare CoP by successfully completing a survey of those CoP performed by
the State survey agency (42 CFR § 488.10(a)). During our audit period, facilities could also
generally demonstrate compliance with the basic Medicare CoP 2 by being accredited as a
hospital by CMS-approved organizations, such as the Joint Commission. 3 However, during that
time, such accreditation did not demonstrate compliance with the special Medicare CoP
(42 CFR § 488.5(a)). 4 Instead, facilities had to be specially surveyed by qualified health care
professionals to demonstrate compliance with the special Medicare CoP. 5 Accreditation or
survey by qualified health care professionals provides CMS with reasonable assurance that
participating facilities are improving the health and protecting the safety of Medicaid
beneficiaries.

For periods in which an IMD does not demonstrate compliance with the basic and special
Medicare CoP, all payments it receives from the State Medicaid agency for inpatient hospital
services to patients aged 65 or older are ineligible for Federal reimbursement.

CATAWBA DID NOT DEMONSTRATE COMPLIANCE WITH SPECIAL
MEDICARE CONDITIONS OF PARTICIPATION DURING THE AUDIT PERIOD

Catawba did not demonstrate compliance with the special Medicare CoP during the audit period.
The Joint Commission accredited Catawba as a hospital throughout the audit period, and that
accreditation generally demonstrated Catawba’s compliance with the basic Medicare CoP.
However, Catawba was never specially surveyed to demonstrate compliance with the special
Medicare CoP. Therefore, Catawba’s inpatient hospital services to patients aged 65 or older did
not meet the Medicaid definition of such services, and all payments it received from the State
Medicaid agency for such services were ineligible for Federal reimbursement.

Of the $18,607,649 in Federal reimbursement claimed for Medicaid payments to Catawba for
inpatient hospital services it provided to patients aged 65 or older on dates during the audit

2
  One exception is the utilization review requirement in 42 CFR § 482.30; however, compliance with the utilization
review requirement was outside the scope of our audit.
3
 The Joint Commission was previously known as the Joint Commission on Accreditation of Healthcare
Organizations and is so referenced in 42 CFR § 488.5(a).
4
 After the audit period (January 1, 2006, through December 31, 2010), CMS granted the Joint Commission deeming
authority with respect to the two special Medicare CoP (76 Fed. Reg. 10598 (Feb. 25, 2011)).
5
 The CMS State Operations Manual, section 2718A, implements Medicare psychiatric hospital requirements in
42 CFR §§ 482.60–482.62, which are also applicable to IMDs that provide inpatient hospital services to patients
aged 65 or older.


                                                         4
period, the State Medicaid agency improperly claimed $17,395,647 for claims with dates of
service outside the regulatory gap period. We have set aside for further review by CMS and the
State Medicaid agency $1,212,002 in Federal reimbursement for payments to Catawba for claims
with dates of service during the regulatory gap period. 6

The State Medicaid agency claimed the $18,607,649 in Federal reimbursement because it
believed that Catawba had met all requirements to be eligible for Medicaid payments for the
inpatient hospital services it provided to patients aged 65 or older.

RECOMMENDATIONS

We recommend that the State Medicaid agency:

    •   refund $17,395,647 to the Federal Government for its share of payments to Catawba for
        inpatient hospital services it provided to patients aged 65 or older on dates outside the
        regulatory gap period,

    •   work with CMS to determine whether the State Medicaid agency should refund an
        additional $1,212,002 to the Federal Government for its share of payments to Catawba
        for inpatient hospital services it provided to patients aged 65 or older on dates during the
        regulatory gap period,

    •   identify and refund the Federal share of any additional Medicaid payments to Catawba
        for inpatient hospital services it provided to patients aged 65 or older on dates after the
        audit period if neither the State Medicaid agency nor Catawba can demonstrate
        Catawba’s compliance with Federal requirements for those services, and

    •   ensure that it claims Federal reimbursement for Medicaid payments for inpatient hospital
        services provided to patients aged 65 or older in IMDs only if those IMDs can
        demonstrate compliance with the special Medicare CoP.

STATE MEDICAID AGENCY COMMENTS

In written comments on our draft report, the State Medicaid agency did not concur with our first
and second recommendations and did not comment on our third and fourth recommendations.
The State Medicaid agency did not concur with our first and second recommendations because it
believes that Catawba demonstrated compliance with the special Medicare CoP throughout the
audit period. The State Medicaid agency indicated that Catawba demonstrated such compliance
via surveys or inspections of Catawba’s compliance with “substantially equivalent” State
requirements. These surveys or inspections were performed by various State agencies other than
the State survey agency. The State Medicaid agency also did not concur with our second
recommendation because it believes that Catawba did not need to comply with regulations
omitted from the Federal Register during the regulatory gap period.

6
 Despite CMS’s inadvertent omission of 42 CFR §§ 482.60–482.62 in 72 Fed. Reg. 15198 (Mar. 30, 2007), CMS’s
implementing guidance remained in effect during this period.


                                                     5
The State Medicaid agency’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State Medicaid agency’s comments, we maintain that our finding and
recommendations are valid. Federal Medicaid requirements mandate that inpatient hospital
services provided to patients aged 65 or older in IMDs are eligible for Federal reimbursement
only if those IMDs demonstrate compliance with the special Medicare CoP.

The State Medicaid agency indicated that Catawba demonstrated compliance with the special
Medicare CoP throughout the audit period, but we disagree. CMS had written guidance in place
that implemented Medicare psychiatric hospital requirements in 42 CFR §§ 482.60–482.62 and
established how facilities should demonstrate compliance with the special Medicare CoP.
CMS’s State Operations Manual, section 2718A, required both Medicare- and Medicaid-
participating facilities to undergo surveys performed by either the State survey agency or CMS
contractors. Those surveys had to be performed by qualified health care professionals in
accordance with guidance in Appendix AA of the manual. During our audit, the State Medicaid
agency confirmed our understanding that Catawba had never been “surveyed by CMS (or its
contractors), State personnel, or any other qualified health care professionals to demonstrate …
compliance with the special Medicare CoP.” Furthermore, in its written comments on our draft
report, the State Medicaid agency did not show that Catawba complied with the Federal
regulatory requirements or CMS’s guidance. Therefore, Catawba did not demonstrate
compliance with the special Medicare CoP during the audit period.

The State Medicaid agency also indicated that Catawba did not need to comply with regulations
omitted from the Federal Register during the regulatory gap period, but we maintain that our
second recommendation is valid. In 72 Fed. Reg. 60787 (Oct. 26, 2007), CMS acknowledged
that it inadvertently omitted regulations for Medicare CoP from the Federal Register, but it also
corrected the omission and indicated that it was a technical error. Moreover, CMS’s
implementing guidance, e.g., the State Operations Manual, remained in effect during the
regulatory gap period.




                                                6
APPENDIX
                                           Page 1 of 6


APPENDIX: STATE MEDICAID AGENCY COMMENTS
Page 2 of 6
Page 3 of 6
Page 4 of 6
Page 5 of 6
Page 6 of 6
